IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

No.
ANTONIO NAVARRO,
Petitioner,
- Vs -
STATE OF CALIFORNIA,
Respondent.

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS AND FOR THE
APPOINTMENT OF COUNSEL

Pursuant to Rule 39 of this Court, Petitioner, Ahmed Ali, moves for leave to file the
attached Petition for Writ of Certiorari to the California Court of Appeal for the Second
Appellate District, Division Fourwithout prepayment of fees or costs to proceed in forma
pauperis.

On the basis of his indigence, I was appointed by the California Court of Appeal to
represent him in the California Court of Appeal in case number B296251, and the California

Supreme Court in case number $265616, upon which the instant Petition for Writ of

Certiorari is based. C

JOHN LANAHAN, Affiant
